SERVICE LIST: FBI, et al. v. Fazaga, et al.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
Telephone: 202-514-2217
Attorneys for Petitioners
AHILAN TREVANESAN ARULANANTHAM
ACLU FOUNDATION OF SOUTHERN CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES, CA 90017
Telephone: 213-977-9500
aarulanantham@aclu-sc.org
Attorneys for Respondents Yassir Fazaga, Ali Uddin Malik, and Yasser
Abdelrahim
PETER BIBRING, ESQ.
ACLU OF SOUTHERN CALIFORNIA SUITE 230
140 S. LAKE AVENUE
SUITE 230
PASADENA, CA 91101
Telephone: 213-977-5295
pbibring@aclu-sc.org
Attorneys for Respondents Yassir Fazaga, Ali Uddin Malik, and Yasser
Abdelrahim
DAN STORMER
HADSELL STORMER & RENICK LLP
128 NORTH FAIR OAKS AVENUE
PASADENA, CA 91103
Telephone: 626-585-9600
dstormer@hadsellstormer.com
Attorneys for Respondents Yassir Fazaga, Ali Uddin Malik, and Yasser
Abdelrahim

KATIE MORAN, ESQ.
WILMER CUTLER PICKERING HALE
AND DORR LLP
350 S. GRAND AVENUE
SUITE 2400
LOS ANGELES, CA 90017
Telephone: 213-443-5300
katie.moran@wilmerhale.com
Attorneys for Respondents J. Stephen Tidwell and Barbara Wallls
CATHERINE CARROLL
WILMER CUTLER PICKERING HALE
AND DORR LLP
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
Telephone: 202-663-6000
Catherine.canoll@wilmerhale.com
Attorneys for Respondents J. Stephen Tidwell and Barbara Walls

